*
by Pro Se Petitiu..~i Stan J. Caterbone - From U.S. Third Circuit Ca^ ,<jo. 19-2712 and U.S. District Court 19-2052

APPENDIX A
OPINIONS BELOW

APPENDIX A - Opinions Below

Page No. 1 of 25

Wednesday August 12,2020

r

by Pro Se Petit..

. Stan J. Caterbone - From U.S. Third Circuit Cc.

.o. 19-2712 and U.S. District Court 19-2052

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 19-2712

STANELY J. CATERBONE,
Appellant
V.

LANCASTER COUNTY PRISON;
CHERYL STEEBERGER, WARDEN;
ALEXANDRIA MILLER, Counselor (Official Capacity);
JAMES JOLLRATH, Block Sergeant (Official Capacity);
PRIME CARE, INC

On Appeal from the United States District Court
for the Eastern District of Pennsylvania
(D.C. Civ. Action No. 5-19-CV-02052)
District Judge: Honorable Jeffrey L. Schmehl

SUR PETITION FOR REHEARING

Present: SMITH, Chief Judge, McKEE, AMBRO, CHAGARES, JORDAN,
HARDIMAN, GREENAWAY, JR., SHWARTZ, KRAUSE, RESTREPO, BIBAS,
PORTER, MATEY, and PHIPPS, Circuit Judges.
The petition for rehearing filed by Appellant in the above-entitled case having
been submitted to the judges who participated in the decision of this Court and to all the
other available circuit judges of the circuit in regular active service, and no judge who
concurred in the decision having asked for rehearing, and a majority of the judges of the

APPENDIX A - Opinions Below

Page No. 2 of 25

Wednesday August 12, 2020

r
by Pro Se Petitii—, Stan J. Caterbone - From U.S. Third Circuit Ca— ,<o. 19-2712 and U.S. District Court 19-2052

circuit in regular service not having voted for rehearing, the petition for rehearing by the
panel and the Court en banc is denied.
BY THE COURT,
s/Joseph A. Greenaway. Jr.
Circuit Judge
Dated: July 27,2020
Lmr/cc: Stanley J. Caterbone

vs

APPENDIX A - Opinions Below

Page No. 3 of 25

Wednesday August 12,2020

>

■o

u
m
z
o
X

>
I

o

■o
.

o'

.3
W

01

><cr

O

T3
o
CO

2.

a>

5FFICE OF THE CLERK

)! TATES COURT OF APPEALS

11

400 U.S. COURTHOUSE
601 MARKET STREET
HILADELPHIA, PA 19106

“D

V : •/

I
r
>M « -

\

CD
0)
3

5OFFICIAL BUSINESS
’ENALTY FOR PRIVATE USE, $300

O

2.
CD
□-

■o
0)
(Q
<D

o

s

z

-n

*

3
c

O

3

s.IO

CO

Ol

2
I

a
9.
3

i-

o
CD

c

i7&03®£=Bi2 C03i

P
CD
N>

S

o

N>
0)

a

£

o

3

c

</)
a

OD

0)

9

w

>

o'

c

O
O
c
3.

£
(Q
(0

CD

N>

o

N>
O

fSJ
O
Ol

ro

Ciby Pro Se Petitii—i Stan J. Caterbone - From U.S. Third Circuit Ca^„ .-Jo. 19-2712 and U.S. District Court 19-2052

UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT
No. 19-2712
Stanley Caterbone v. Lancaster County Prison, et al
(District Court/Agency No. 5-19-cv-02052)

ORDER
The Court has received petition for rehearing by Stanley J. Caterbone.
The petition for rehearing requirements are set forth in Fed. R. App. P. 32(g), 35(b), 40(b) and
Third Circuit LAR 35.1 and 35.2. Your document does not comply with the following
requirement(s):
Any additional documents attached to the petition must be accompanied by a motion to file
the exhibits attached to the petition for rehearing. See Third Circuit L.A.R. 35.2(a).
Pursuant to 3rd Cir. LAR Misc. 107.3 and 3rd Cir. LAR Misc. 113, if the Court finds that a party
continues not to be in compliance with the rules despite notice by the Clerk, the Court may, in its
discretion, impose sanctions as it may deem appropriate, including but not limited to the
dismissal of the appeal, imposition of costs or disciplinary sanctions upon a party or counsel.
The above deficiencies must be corrected by 05/28/2020.
No action will be taken on the document until these deficiencies are corrected.
For the Court,
s/ Patricia S. Dodszuweit.
Clerk
Dated: May 14, 2020
cc:
Mr. Stanley J. Caterbone

APPENDIX A • Opinions Below

Page No. 5 of 25

Wednesday August 12, 2020

by Pro Se Petit^^^Stan J. Caterbone - From U.S. Third Circuit Ca^„ wo. 19-2712 and U.S. District Court 19-2052

Case: 12-2712

Document: 25-2

Page: 1

Date Fifed: 04/30/2020

OFFICE OF THE CLERK

iP.'VmiCiA S. DODSZUWETf
CLERK

UivfTED Stalks Court of Appeals

n-XHJMlUNfc

:hihi UNITED STATES CQURTHWSE
mil MARKET STREET
I'llll.AIJlilLUlA. IV', iVlUI'TSV

215-597-2995

Wclisitc: wYW.ca3.uscourUi.gov

April 30, 2020

Mr, Stanley J, Caterbone
125tJ (Fremont Street
Lancaster. PA 17603

RE: Stanley Caterbone v. Lancaster County Prison, ei; a!
Case. Number; 19-271 ‘2
District Court Case blumben 5-19*cv-02£)52
£NTRY OF. JUDGMENT
Today. April 30,2020 the Cowl entered i» judgment in the abovc-capliotied it tatter pursuant to
Fed. R. App. P. 36.
If you wish to .seek review of the Court's decision, you may file a petition for rchcuruig. The
procedures for tiling a petition for rehearing are set forth in; Fed, R, App. P, 35 and 40, 3rd Cir,
LAR 35 and 40. and summtreed hejovv.
TiinK fedMiog:
14 days alter cniiv of judgment.
45 days after entry ofjudgment in is civil case if the United States is a party,
EdmiiiiiJiils:
3900 words if produced hv a coitrpuler. with a certificate of compliance pursuant to Fed. R, App,
P, 32(g).
15 pages if hand or type written.
Attachments:
A copy of the panel's opinion wml judgment only.
Ccrtitlcate of service.
Certificate of compliance if petition is produced by a computer.
No ©User attachments are perntirtcd without first obtaining leave from the Court-

4
APPENDIX A - Opinions Below

Page No. 6 of 25

Wednesday August 12,2020

by Pro Se Petite.. .,,'Stan J. Caterbone - From U.S. Third Circuit Ca— wo. 19-2712 and U.S. District Court 19-2052

Case: i9-2? 12

Document 25-2

Page: 2:

Date Filed: 04/30/2020

Unless the petition specifics that the petition seeks only panel rehearing, the petition- will be
construed as-requesting bosh panel and cn bane rehearing. Pursuant to Fed. RL. App. P. 35(b)(3),
irseparate petitions for panel rehearing and rehearing m bane are submitted,- they will be treated
as a single document and will be subject to the town limits as set forth in Fed. ft. App, P.
35(b)(2). If only panel rehearing is sought, the Court's rules do not provide for the subsequent
filing gf a petition for rehearing es? feme in ihc event that the petition seeking only panel
rehearing rs denied,
A party who is entitled to costs pursuant to Ped.R.App.P, 39 must file an itemized and verified
bill of costs within 14 days from the entry ofjudgment. Ths bid of costs must be submitted w
the proper form which is available on the court's website.
A mandate will fee issued at the. appropriate lime in accordance with the Fed. R. App. P. 41.
Please consult the Rules of the Supreme Court of the United Slates regarding the timing and
requirements for filing a petition for writ, of certiorari.

For the Court
!

s/ Patricia S. Dodszuweit
Clerk
s/ pdb- Case Manager

APPENDIX A - Opinions Below

Page No. 7 of 25

Wednesday August 12, 2020

\
by Pro Se Petiti\,..LStan J. Caterbone - From U.S. Third Circuit

BED-165

.. ,4o. 19-2712 and U.S. District Court 19-2052

NOT PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR. THE THIRD CIRCUIT
No, 19-2712
STANLEY J. CATERBONE,
Appellant
v,
LANCASTER COUNTY PRISON;
CHERYL STEERERGER, WARDEN;
ALEXANDRIA MILLER Counselor (Official Capacity);
JAMES JOLLRATH,. Block Sergeant (Official Capacity):
PRIME CARE, INC
On Appeal from the United Slates District Court
lor l tic Eastern District of Pennsylvania
(D.C. OOt Action No. 5-19-cv-02052)
District Judge: Honorable Jeffrey L. Schmehl

Submitted. for Possible Dismissal Pursuant to 28 U-S.C. § 19lS(eX2)(B) or
Summary Action Pursuant to Third Circuit LAR 27,4 and 1,0.P. J0.6
April 16, 2020
Before: AMBRO, GREENAWAY, 4r.> and BUMS. Circufi Judges
(Opinion tiled: April 30, 2020}
OPINION"
PER CURIAM
5 This disposition is not an opinion of the full Court and pursuant to I.G.P, 5.7 does not
constitute binding precedent.

APPENDIX A - Opinions Below

Page No. 8 of 25

Wednesday August 12, 2020

by Pro Se Petitn

Stan J. Caterbone - From U.S, Third Circuit Ca— ,sio. 19-2712 and U.S. District Court 19-2052

Stanley Caterhone appeals the District Court's order dismissing his amended
complaint for failure to suite ft claim. Fur the reasons below, we will, summarily affirm
lire District Conn's order.
In May 20It, Caterbone filed a morion for n preliminary injunction against
Lancaster County Prison and its warden, He complained that while incarcerated in the
prison he was not given writing supplies arid copy services for his legal work. He
demanded immediate copy service, medical treatment,, and a criminal investigation. The
District Court dismissed the pleading but gave Caterhone time to iile an amended
.complaint. In its detailed order.- the District Court gave C«terboac explicit instructions on
how to provide sufficient information for his claims.
Cfiterbotie tiled an amended complaint, naming (he warden, a counselor, a block
sergeant, and the medical provider as defendants. The District Court dismissed the
amended complaint before service pursuant to 28 U.S.C. § l9i.5(e)(2KB)(ii) for failure to
N

stale » claim. Catarfepne filed a timely police of appeal, and we have jurisdiction under
2S US.C, § 1291.
Deliberate indifference to serious medical needs
In his amended complaint, Caterbone alleged that while incarcerated be needed
medical treatment for chronic pain. He asserted fowl be Was denied a cane and. anti*
inflammatory medication previously prescribed by his doctor and was instead given small
doses of naproxen twice a day. In order to .stale a claim tinder the Eighth Amendment for
denial of medical care, Oiterbime needed to allege that The defendants were deliberately

APPENDIX A - Opinions Below

Page No. 9 of 25

Wednesday August 12, 2020

by Pro Se Petiti, JStan J. Caterbone - From U.S, Third Circuit Ca„_ ,>lo. 19-2712 and U.S. District Court 19-2052

indifferent to his serious medical needs. Estelle v. Gamble. 429 US, 97,104-OS (1976).
A medical need is serious if it is “one that has been diagnosed by a physician as requiring
treatment or one that is so obvious that a lay person would easily recognize the necessity
far a doctor’s attention.'’ Monmouth Ov Corn Inst Inmates v. Lanzaro. 834 F.2d 326,
347 (3d Or. 19E7). We will assume arguendo that Grterbone’S chronic pain is a serious
medical need. Thus, we address whether Caterbone has alleged tacts that could establish
that the defendants were deliberately indifferent to that serious medical need.
Caterbone asserted in his amended complaint dial Warden Sicebergcr was
responsible for providing medical treatment at the prison. However* prison officials
cannot be held to be deliberately indifferent .merely because they did not respond to the
medical complaints of & prisoner who was already being treated by the prison medical
staff. Dimmer v. CFCarroU. 991 F,2d 64, 69 (3d Cir. 1993). “f AJbsent a reason to believe
(or actual knowledge) that prison doctors or their assistants are mistreating (or not
treating) a prisoner, a non-medical prison official Q will nor be chargeable with the
Eighth Amendment scienter requirement of deliberate indifference.” Spruill V. Gilfis.
372 F.3d 218, 236 (3d Cir. 2004). Caterbone had not alleged any facts suggesting that
Warden Stecburger or the other prison official defendants had anv reason to believe that
Caterbone was not being appropriately cared for by the rued teal staff. Thus, we will
examine the allegations, of deliberate indifference with respect to the remaining
defendant lYimecare, the prison medical provider, f’riraecare cannot be held responsible
for the acts of its employees. See NPlate v. Camden, Cottn.lv Con*. Facility. 318 F„3d 575,
3

APPENDIX A - Opinions Below

Page No. 10 of 25

Wednesday August 12, 2020

by Pro Se Petitu_—r Stan J. Caterbone - From U.S. Third Circuit Ca_^o. 19-2712 and U,S. District Court 19-2052

583 (3d Cir, 2003), Rather, Caterbone must show that Frimecare had a policy or custom
that caused the alleged deliberate indifference. Id, at >83-84.
As noted above, Caterbone alleges that lie was given naproxen instead of more
powerful an!i-infl&miimiorics, While he alleged that Primceare’s medical Staff took him
on and off his pain medication, he has alleged no facts to support Ids conclusion that he
was ta ken off the med ication to cause pain and sufferin g and not as a n exercise of
medical judgment. Nor has he alleged any policy nr custom by Primvcare that led to his
being taken off of his medical bn. Moreover, mere disagreement as to the proper medical
treatment will not support a claim under the Eighth Amendment Spruill, 372 F,3d at
235. Courts will “disavow any attempt to second-guess the propriety or adequacy of a
particular course of treatment... (which) remains a question of sound professional
judgment* Inmates of Allegheny tail v. Pierce. 612 F. 2d 754, 762 (3d Cir. 1979)
(citations omitted). We agree with the District Court that Caterbone has not Stated a
claim for deliberate indifference to any serious medical need.
Denied of access to the courts
Caterbone alleged that be was provided the materials and services needed for his
pending legal cases only sporadically. In order io suite a claim of the denial of access to
the courts, a prisoner such as Caterbone must allege that his efforts to pursue a legal
claim, were hindered and he suffered an actual injury, Lewis v. Casey. 518 U.S. 343. 351
(199(f). In dismissing his original complaint for failure to state a claim, the District Court
i

ad vised Caterbone of this requirement,
4

APPENDIX A - Opinions Below

Page No. 11 of 25

Wednesday August 12, 2020

/r >
by Pro Se PetittltiwfStan J. Caterbone - From U.S. Third Circuit Ca'st ,-Jo. 19-2712 and U.S. District Court 19-2052

In bts amended complaint, Caterbone appeared to allege that, m May 2019. he
«• •

twice appealed a state court's order deferring his sentencing on a probation v i olation until
after his pending criminal charges were resolved. Coterbotie alleged that tine appeals
were puiposcfeUy mishandled by prison officials to ’keep him falsely imprisoned and, as a
result, the state court denied his request for relief on June 13.2b 19. He claimed that
prison employees could not confirm that I He appeals were mailed and that the docket
i

shows that the appeals were not recorded. However., the electronic state court docket
indicates that several filings were received from Caterbone in May 2019. including a
petition for'transcripts, a petit ion for House arrest a motion for reconsiderat i on, and three
filings labeled “case correspondence." Even if Ms filings were not received and docketed
as. He believed they should be, Caterbone lias not alleged any facts supporting a ciuim that
any mishandling of ihc mail fey prison .officials caused the lack of receipt as opposed to
mistakes by the postal service or the state court’s clerk's offi ce. Moreover, even if be had
alleged facts showing fault by prison officials, he did not plausibly allege an.actual injury
ns discussed below.
Caterbone needed to allege an actual injury, l.e.. that he was hindered in his efforts
to litigate a nonfrivolous or arguable claim. Monroe v. Beard. 536 FJd 198,205 (3d Or,
2008). Prisoners may proceed on acccss-ta-court claims only for challenges to their
sentences or conditions of confinement, gee id. at 205, and Caterbone has failed to allege
an actual injury with respect to any such legal challenge. Caterbone asserted that the
mishandling ofhfs appeals of the, order deferring sentence on his probation violation
5

APPENDIX A - Opinions Below

Page No. 12 of 25

Wednesday August 12,2020

1

by Pro Se Petit*

■'

)

Stan J. Caterbone - From U.S. Third Circuit Ca;._ wo. 19-2712 and U.S. District Court 19-2052

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

BID-165

No, 39-2712
STANLEY J, CATERBONE,
Appellant
v.
LANCASTER COUNTY PRISON:
CHERYL STEI’BBRGER WARDEN;
ALEXANDRIA MILLER, Counselor (Official Capacity);
JAMES JOLLRATH, Block Sergeant (OHIcial Capacity);
PRIME CARE, 3NG
On Appeal from the United Slates District Court
for the Eastern District of Pennsylvania
(D,C, Civil Action No. 5-19-cv-02052)
District Judge; Honorable Jeffrey L. Schmehl
Submitted for Possible Dismissal Pursuant to 28 U,S,C. § 1,915(c)(2)(B) or
Summary Action Pursuant to Third Circuit LAR 27.4 and LO.P. 30.6
April 16,2020
Before; AMBRO. GREENAWAY', /r„ aiw.1 RfBAS, Circuit Judfoes
JUDGMENT- Mills cause came to be-considered on the record from (he United. States District
Court for the Eastern District of Pennsylvania and was submitted for possible dismissal
pursuant to 28 U.S.C. f 1915(e)(2)(B) and for possible summary action pursuant to Third

APPENDIX A - Opinions Below

Page No. 15 of 25

Wednesday August 12,2020

by Pro Se Petitt^__ Stan J. Caterbone - From U.S. Third Circuit Cas<= .mo. 19-2712 and U.S. District Court 19-2052

Circuit EAR 27.4 and KO.P-10.6 on April!6.2020. On consideration'vvhereof, it is now
hereby
r"

ORDERED and ADJUDGED by this Court that the judgment of the District Court
entered July 2. 2015. be and the same; hereby is affirmed All. of the above in accordance
with the'opinion of this Court,

•* •

ATTEST:
s/ Patricia S. Dodszyweii
Clerk
DATED: April 30, 2020
i‘

i

2

APPENDIX A - Opinions Below

Page No. 16 of 25

Wednesday August 12, 2020

by Pro Se Petitioner Stan J. Caterbone - From U.S. Third Circuit Case No. 19-2712 and U.S. District Court 19-2052

I52

?4

=4

i.

t
4*

-A * ^

m- *

r
—

i

"s.

* '* *
' i ‘

«■

■rl

P>
o

o

(M

in

in

h

1

O
to

r~

I

CO

a!

CL
Q.
< ui
CO
£jir § j- O
uTOq S 1}
to st tc 5i .
^ O otu x
ou^cj

gSsSii
°S)~ a.

!

"i £
V >

^ E n*
E is
— uu i,
/: - 'J1

I

5

*5

ZV

21
Is

n

*
~
E

\

Q

V
V

V

APPENDIX A - Opinions Below

2

Z>
Page No. 17 of 25

Wednesday August 12, 2020

(20
"1

w

